HHS/OIG, Audit - "Review of Excess Plan Costs Claimed by Blue Cross Blue
Shield of South Carolina for Medicare Reimbursement for Fiscal Years 19962004,"
(A-07-07-00235)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Excess Plan Costs Claimed by Blue Cross Blue Shield of South Carolina for
Medicare Reimbursement for Fiscal Years 19962004," (A-07-07-00235)
October 19, 2007
Complete
Text of Report is available in PDF format (375 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Blue Cross Blue Shield of South Carolina (South Carolina)
administers Medicare Part A and Part B operations in its Palmetto Government
Benefit Administrators (Palmetto) and TrailBlazer Health Enterprises (TrailBlazer)
subsidiaries under cost reimbursement contracts with the Centers for Medicare &
Medicaid Services.  Our objective was to determine the allowability of the
Excess Plan costs that South Carolina claimed for Medicare reimbursement for
fiscal years (FY) 19962004.  We found that South Carolina overclaimed
$1,847,056 in accrued Excess Plan costs
for FYs 19962004 because it improperly determined costs based on accrual
accounting.
We recommended that South Carolina revise its Final Administrative Cost Proposals
for FYs 19962004 for Palmetto and FYs 20002004 for TrailBlazer to reduce
claimed Excess Plan costs by $1,847,056.  In written comments on our draft
report, South Carolina did not directly address our recommendation.